W                                                                          September 24, 1998


TO:            AA/Director, Johnson Space Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Space Station Configuration Management
               (Assignment Number A-HA-98-024)
               Report No. IG-98-032


The subject final report is provided for your use. We have incorporated into the final report your
comments, which included additional information and clarification of items in the draft report.
We consider the report closed for reporting purposes.

If you have questions concerning the report, please contact Mr. Dennis Coldren, Program
Director for Human Exploration and Development of Space Audits, at (281) 483-4773, or
Ms. Karen VanSant, Auditor-in-Charge, at (256) 544-1149. We appreciate the courtesies
extended to the audit staff. Appendix D contains the report distribution.


[original signed by]
Russell A. Rau

Enclosures

cc:
B/Chief Financial Officer
G/General Counsel
JM/Director, Management Assessment Division
                                                          IG-98-032



AUDIT
REPORT                         SPACE STATION CONFIGURATION
                                     MANAGEMENT
                                     September 24, 1998




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
 Space Administration
ADDITIONAL COPIES

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

Assistant Inspector General for Auditing
NASA Headquarters
Code W
300 E St., SW
Washington, DC 20546

NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential, upon request, to the extent permitted by law.




ACRONYMS

FCA            Functional Configuration Audit
ISS            International Space Station
PCA            Physical Configuration Audit
SSCB           Space Station Control Board
SSICB          Space Station Integration Control Board
SSP            Space Station Program
                 Report on the Survey of Space Station Configuration Management
                                Assignment Number A-HA-98-024


Introduction

The NASA Office of Inspector General completed a survey of the International Space Station
(ISS) Configuration Management Program. The overall objective of the survey was to evaluate
the adequacy and effectiveness of the Configuration Management Program for the ISS.
Specifically, we evaluated the adequacy of the functional and physical configuration audit
processes for the ISS Program and assessed whether procedures for reviewing, approving, and
obtaining equitable consideration1 for major waivers and deviations were adequately applied.

We met with NASA and Boeing Company personnel to obtain an overview of the configuration
management process.          Also, we reviewed ISS Configuration Management Program
documentation, dated from April 1992 through June 1998, to identify applicable management
controls and to verify that the controls were working as described. The survey was performed in
accordance with generally accepted Government auditing standards. We performed field work
from February through July 1998.

Results in Brief

The functional and physical configuration audit processes for the ISS Program were effective in
meeting program needs. In addition, the procedures the ISS Program managers used for
reviewing, approving, and obtaining equitable cost consideration for waivers, deviations, and
other changes were adequate.

Background

The ISS effort involves more than 100,000 people in space agencies and at hundreds of contractor
and subcontractor companies worldwide. In all, 16 nations have coordinated in one of the largest,
nonmilitary, joint efforts in history. NASA has contracted with the Boeing Company to be the
integrating prime contractor and to participate in the management of the ISS Program. Boeing is
responsible for design, development, test, verification, and delivery of the U.S. On-Orbit Segment,
Functional Cargo Block (also known by its Russian acronym FGB), its hardware, software, and
associated data. Boeing’s responsibility also includes the on-orbit performance of the entire ISS.

The Configuration Management Program is needed for the successful implementation of the ISS
Program. Space Station Program (SSP) Document 41170, “Configuration Management
Requirements,” dated March 23, 1994, requires that configuration management:

           •    establish a baseline of requirements and implement a disciplined system that serves to
                control subsequent changes to the baseline,

1
    Consideration can mean reduced contract price, reimbursement, or other compensation.
       •    perform reviews to verify that the previously established baseline requirements are
            included in the design and development of program configuration items,
       •    establish an accounting system that identifies the baseline and tracks changes and
            change actions thereto, and
       •    provide for audits of the configuration management system to ensure that it is
            functioning properly in accordance with the baseline requirements.

The primary requirements of the ISS Configuration Management Program are identified in SSP
Document 41170, “Configuration Management Requirements,” dated March 23, 1994, and SSP
Document 50123, “Configuration Management Handbook,” dated June 30, 1995.

The ISS Program Office has established the Space Station Control Board (SSCB) to oversee the
overall configuration baseline. According to the SSCB charter, “The SSCB shall be responsible
for controlling the Space Station Program top-level baseline, consisting of technical, management,
operations, user, and integration requirements; Program schedules; resources; and the overall
Space Station configuration.” The SSCB is chaired by the NASA Manager of the Space Station
Program and includes representatives from NASA, the prime contractor, and the International
Partners.

In addition, the ISS Program has established the Space Station Integration Control Board
(SSICB), which reports to the SSCB. According to its Charter, “The SSICB is responsible for
approval of changes to the baseline and deviations, waivers, and exceptions to the baseline
consisting of technical, management, operations, user, and integration requirements, as well as
Program schedules and resources and the overall NASA baseline for the ISSP [ISS Program]
configuration.” The SSICB is jointly chaired by the NASA and Boeing ISS Program managers.
The SSICB also includes representatives from NASA, the prime contractor, and International
Partners.

Functional Configuration Audits and Physical Configuration Audits

The ISS Program has adequate functional and physical configuration audit processes. A
Functional Configuration Audit (FCA) is a formal audit of the “as-designed” configuration. The
purpose is to validate that the development of a configuration item has been completed
satisfactorily and that the configuration item will perform as designed. A Physical Configuration
Audit (PCA) is an audit that compares the “as-built” configuration item against its technical
documentation. The PCA formally establishes the production baseline for the configuration item.

The FCA and PCA are normally combined but may be performed separately. To evaluate the
adequacy of the FCA and PCA processes, we reviewed FCA and PCA program documentation.
We also selected a sample of six combined FCA/PCAs for review from the universe of
93 completed FCA/PCAs. (See Appendix A for a listing of FCA/PCAs selected for review.) We
selected the six FCA/PCAs from various Boeing sites and subcontractors; the configuration items
varied in size and complexity. Two of the FCA/PCAs included both hardware and software
configuration items or interfaces.   The remaining four FCA/PCAs were for hardware



                                                2
configuration items. The overall FCA and PCA processes for software configuration items are
the same as for hardware configuration items.

The FCA and PCA processes were adequately documented. The FCA/PCA team members
documented the results of the FCA/PCAs in the minutes of the reviews. The minutes supported
the processes as described in the program documentation and included all required certifications
and reviews.

Boeing’s configuration management staff tracks the action items and program issues from the
FCA/PCAs and reports the status at weekly teleconferences with ISS Program managers. Action
items and program issues are questions, issues, or actions that must be completed and closed
before the formal audit can be completed. Action items and program issues are essentially the
same, except that program issues require action outside the scope of the supplier’s contract.
Depending on the item being addressed, either Boeing or NASA would be responsible for
resolving program issues. Boeing’s configuration management staff summarizes action items and
program issues for all the FCA/PCAs on a status tracking report to provide ISS Program
management a tool to help ensure that all items are corrected and closed.

Waivers, Deviations, and Exceptions

Guidance for ISS configuration management classifies changes as waivers, deviations, and
exceptions. Specifically, SSP Document 41170, SSP Document 50123, and Department of
Defense Military Standard 973, “Configuration Management,” dated April 17, 1992, provide
guidance for handling configuration changes. The procedures ISS Program management used for
reviewing, approving, and obtaining equitable consideration for the changes were satisfactory.

Waivers are written authorizations to accept a contractor’s nonconformance to specifications
during or after production for a specific period. Waivers are generally one-time changes that
accept an item “as is,” usually associated with hardware changes, and are accomplished through a
letter approved by the contracting officer. On the other hand, deviations are specific
authorizations to accept temporary nonconformance to specifications before production. Like
waivers, deviations are also accomplished through a letter approved by the contracting officer.

Exceptions are permanent changes to the contract requirement in order to match design
specifications. Exceptions are normally made in the design phase of the process and are
accomplished through contract modifications.

All changes (waivers, deviations, and exceptions) undergo a review process by both ISS Program
management and the contracting officer. The NASA Configuration Management Department
maintains a log that tracks all actions. Changes that have cost, schedule, or technical effects on
the existing contractual baseline or other Agency controlled configuration baseline are tracked in
the Change and Commitment Tracking Information System. Configuration Management
Department personnel meet weekly with the contractor and the control boards to review changes.
The documentation we reviewed adequately supports the ISS configuration change process.



                                                3
The universe for our sample consisted of 97 changes (7 completed and 90 in-process changes) to
configuration items made during fiscal years 1995 through 1997 and through March 1998. For
the completed changes, we reviewed all five waivers and two exceptions. There were no
completed deviations at the time of our review. From the universe of 90 in-process changes, we
randomly selected a sample of 16 items (8 deviations, 2 waivers, and 6 exceptions). All the
selected items were included in the Change and Commitment Tracking Information System. We
evaluated all 23 changes (7 completed and 16 in-process) for cost consideration, timeliness, and
documentation. (See Appendix B for listing of changes reviewed.)

At the time of our review, the ISS Program had not issued any major waivers or deviations.
NASA does not adjust Boeing’s target costs and fee if the cost of the change does not exceed a
$500,000 cost threshold specified in the contract. Any cost savings due to waivers, deviations, or
exceptions are realized through a reduced cost to the contract. None of the completed changes
we reviewed required cost consideration because they were less than the $500,000 cost threshold.

The ISS Configuration Management Department does not have specific metrics to measure
timeliness. The time taken to process changes varied from 8 days to 9 months. Some changes
take much longer than others because of extensive testing and verification, meeting with
contractor and NASA review and approval boards, and obtaining the necessary information and
documentation (acceptance rationale, part numbers, etc.). On the other hand, the Johnson Space
Center Procurement Office has measurable criteria for timeliness. For example, the Procurement
Office has a goal that minor changes costing less than $500,000 should be definitized within 30 to
60 days and that major changes costing $500,000 or more should be definitized within 180 days.

The ISS Configuration Management Department and the Procurement Office documentation for
the selected changes contained the necessary authorization signatures, problem description,
rationale, directives, and drawings. As an added control, the contracting officer now requires the
cognizant ISS Board Panel Chairman to submit a form to the contracting officer to support
whether a cost adjustment is appropriate.

Single Process Initiative

In addition to reviewing waivers, deviations, and exceptions, we reviewed Boeing’s efforts under
the Single Process Initiative. The Single Process Initiative is a Department of Defense acquisition
reform designed to reduce contractor operating costs and to achieve cost, schedule, and
performance benefits for the Government. Cost reduction is achieved by (1) transitioning
contractor facilities from multiple, Government-unique management and manufacturing systems
to the use of common, facility-wide processes and by (2) using a “block change” modification
approach that unifies requirements in existing contracts on a facility-wide basis, rather than on a
contract-by-contract basis. Contractors usually explain proposed changes in the form of concept
papers, which are reviewed by Department of Defense officials. NASA also reviews the concept
papers if Agency contracts may be affected by the proposed changes.

Boeing has participated in the Single Process Initiative effort and produced 30 (58 percent) of the
52 concept papers submitted to Johnson Space Center from October 1, 1996, through June 25,


                                                4
1998. The concept papers associated with the ISS Program accounted for 24 (46 percent) papers
submitted to Johnson Space Center. Of the 11 ISS concept papers that had been approved as of
June 25, 1998, 8 had total projected savings of about $4.5 million for all Government contracts
affected by the proposed changes.2

Management Comments

Management concurred with the overall report. In addition, management provided additional
information and minor clarification of items in the draft report which we have incorporated into
this final report. See Appendix C for the complete text of management’s comments.




2
 For additional information on the Single Process Initiative, please see the NASA OIG Partnerships and Alliances
Review Report, “Review of National Aeronautics and Space Administration Single Process Initiative (SPI)/Block
Change Process Implementation,” Report Number P&A-98-002, dated August 17, 1998.


                                                       5
                                                                                  Appendix A

 FUNCTIONAL CONFIGURATION AUDITS/PHYSICAL CONFIGURATION AUDITS
                           REVIEWED


We identified a universe of 93 completed FCA/PCAs as of June 26, 1998. The FCAs and PCAs
are normally combined but can be performed separately. The universe included both combined
and separate FCAs and PCAs. We judgmentally selected six combined FCA/PCAs for review.
We sought to obtain a representative sample of the FCA/PCAs. Therefore, we selected the
following six FCA/PCAs from various Boeing sites and subcontractors; the configuration items
varied in size and complexity.

      •   Mission Build Facility - The Boeing Company (Boeing Huntington Beach)

      •   Standard Multiplexer/Demultiplexer - Honeywell, Inc. (subcontractor)

      •   Avionics Air Assembly - United Technologies Hamilton Standard (subcontractor)

      •   Hatch Operations Kit - The Boeing Company (Boeing Huntsville)

      •   Rack Standard Payload - The Boeing Company (Boeing Huntsville)

      •   Node 1 Assembly (Final) - The Boeing Company (Boeing Huntsville)

The Node 1 Assembly (Final) was an overall review of the Node 1 Assembly. Node 1 contained
36 lower level configuration items. NASA and/or Boeing officials reviewed these items during
their individual FCA/PCAs or first article inspection reviews. NASA and Boeing officials
reviewed the status of completion of the FCA/PCAs or other reviews for these items during the
Node 1 Assembly FCA/PCA.




                                              6
                                                                           Appendix B

               WAIVERS, DEVIATIONS, AND EXCEPTIONS REVIEWED



NO.      TYPE       SPACE STATION                  DESCRIPTION/TITLE
                       CHANGE
                       NOTICE
 1    Exception           451          Administrative change
 2    Exception           470          Administrative change
 3    Waiver             1060          IATC system cleanliness
 4    Waiver              698          Rigid flex board/motherboard harness-reduced
                                       annular ring
 5    Waiver               698         MDM CCA PWB via holes exposed copper due
                                       to solder mask rework
 6    Waiver               698         MDM CCA PWB via holes exposed copper due
                                       to solder leveling
 7    Waiver           Not available   Portable fire extinguisher
 8    Deviation            742         Deviation from meeting the exposed corners
                                       requirement RFD-AJ-28
 9    Deviation            754         Request for deviation - LEE curvic coupling
                                       sharp edges & corners CSA #RDF00031
10    Deviation            757         Request for deviation - orbiter PLB violation
                                       failure tolerance & contingency de-orbit time
                                       limits CSA #RFD00035-A
11    Deviation            760         Request for deviation - multiple system hazard
                                       controls CSA #RFD00039
12    Waiver               763         Request for waiver - use of assembly language
                                       CSR #RFW MSSP 3.047
13    Waiver               765         Request for waiver - welding qualification CSA
                                       #RFW00062
14    Deviation            785         Deviation from additional testing of ACTEL
                                       A1020A FPGAs RFD-AJ-01
15    Deviation            790         Deviation from having green LED transluminated
                                       color RFC-AJ-06
16    Deviation            799         Deviation from requirement that displays be
                                       within 30 degrees of the design eye point in the
                                       neutral posture RFD-AJ-16




                                        7
                                                                       Appendix B


NO.      TYPE     SPACE STATION               DESCRIPTION/TITLE
                     CHANGE
                     NOTICE
17    Exception        842        Request for exception to SSP 41172 for the
                                  TRRJ#2, S1 segment, and the PDGF drigid
                                  umbilical
18    Exception        844        Exception to SSP 41172 ramp rate requirement
                                  for radiator ORU thermal vacuum test
19    Exception        855        Exception to SSP 41172 thermal cycle
                                  acceptance cycle test dwell time for marotta
                                  valves
20    Exception        909        Exception for SSP 41172 acceptance thermal
                                  vacuum test for the solar array wing mass
                                  canisters
21    Exception        914        Designation for deviation/waiver of ionizing
                                  radiation requirements
22    Exception       1053        Exception to SSP 41172 thermal vacuum testing
                                  for the remote power controller module all types
23    Exception       1102        Exceptions to EME requirements f/SSP 30237,
                                  SSP 30243 & SSP 30245




                                   8
                            Appendix C

MANAGEMENT’S COMMENTS




                        9
     Appendix C




10
                                                                           Appendix D


                                  REPORT DISTRIBUTION



National Aeronautics and Space Administration (NASA) Headquarters

    Code B/Chief Financial Officer
    Code B/Comptroller
    Code G/General Counsel
    Code H/Acting Associate Administrator for Procurement
    Code J/Associate Administrator for Management Systems and Facilities
    Code JM/Director, Management Assessment Division
    Code L/Associate Administrator for Legislative Affairs
    Code M/Associate Administrator for Space Flight
    Code W/Assistant Inspector General for Inspections, Administrative
       Investigations, and Assessments

NASA Director, Field Installations

    Lyndon B. Johnson Space Center
    John F. Kennedy Space Center
    Lewis Research Center
    George C. Marshall Space Flight Center

NASA Offices of Inspector General

    Ames Research Center
    Goddard Space Flight Center
    Jet Propulsion Laboratory
    Lyndon B. Johnson Space Center
    John F. Kennedy Space Center
    Langley Research Center
    Lewis Research Center
    George C. Marshall Space Flight Center
    John C. Stennis Space Center




                                                                            Appendix D

Non-NASA Federal Organizations and Individuals

    Assistant to the President for Science and Technology Policy
    Deputy Associate Director, Energy and Science Division, Office of
      Management and Budget


                                                    11
    Budget Examiner, Energy Science Division, Office of Management and
      Budget
    Associate Director, National Security and International Affairs Division,
      General Accounting Office
    Special Counsel, House Subcommittee on National Security, International
      Affairs, and Criminal Justice
    Professional Assistant, Senate Subcommittee on Science, Technology, and
      Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

    Senate Committee on Appropriations
    Senate Subcommittee on VA, HUD, and Independent Agencies
    Senate Committee on Commerce, Science and Transportation
    Senate Subcommittee on Science, Technology and Space
    Senate Committee on Governmental Affairs
    House Committee on Appropriations
    House Subcommittee on VA, HUD, Independent Agencies
    House Committee on Government Reform and Oversight
    House Committee on Science
    House Subcommittee on Space and Aeronautics

Congressional Member

    The Honorable Pete Sessions, U.S. House of Representatives




                                                    12
Major Contributors to this Report

Lee T. Ball, Deputy Assistant Inspector General for Auditing
Dennis E. Coldren, Program Director for Human Exploration and Development of Space Audits
Karen E. VanSant, Auditor-in-Charge
Rhodora Southerland, Auditor
June Glisan, Program Assistant
